OFFICE OF INSPECTOR GENERAL



AUDIT OF
USAID/CAR/KAZAKHSTAN’S
MICROFINANCE ACTIVITIES
AUDIT REPORT NO. 9-901-07-008-P
September 24, 2007




WASHINGTON, DC
    Office of Inspector General


    September 24, 2007

    MEMORANDUM

    TO:                  USAID/Central Asia Regional Director, William Frej

    FROM:                IG/A/PA Director, Steven H. Bernstein /s/

    SUBJECT:             Audit of USAID/CAR/Kazakhstan’s Microfinance Activities
                         (Report No. 9-901-07-008-P)

    This memorandum transmits the Office of Inspector General’s final report on the subject
    audit. We have carefully considered your comments on the draft report in finalizing the
    audit report and have included your response in Appendix II of the report.

    This  report   contains   four   recommendations      intended   to  strengthen
    USAID/CAR/Kazakhstan’s microenterprise activities. Based on your comments and
    documentation provided, we consider that final action has been taken on all four
    recommendations.

    Again, I want to express my appreciation for the cooperation and courtesy extended to
    my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objectives ................................................................................................................ 3


Audit Findings ................................................................................................................. 4 


Did USAID/CAR/Kazakhstan implement its microenterprise

activities efficiently? .......................................................................................................... 4 


     ADS Eligibility Criteria Not Followed ........................................................................... 5 


Did USAID/CAR/Kazakhstan’s microenterprise activities 

achieve planned results? .................................................................................................. 6 


     Some Performance Targets Were Not 

     Realistic....................................................................................................................... 8


     Monitoring Needs Strengthening................................................................................. 8 


Evaluation of Management Comments ....................................................................... 11 


Appendix I – Scope and Methodology ........................................................................ 13 


Appendix II – Management Comments ....................................................................... 16 


Appendix III – Definitions of Evaluation Criteria ........................................................ 19 


Appendix IV – USAID/CAR/Kazakhstan Microfinance Organization Structure…….20 

SUMMARY OF RESULTS

This audit, performed by the Office of Inspector General’s Performance Audits Division,
is one in a series of individual worldwide mission audits of USAID’s microfinance
activities. The audit was conducted to determine whether USAID/Central Asian
Republics (CAR)/Kazakhstan implemented its microenterprise activities efficiently and
whether it achieved its planned results. (See page 3.)

With respect to the efficiency question, USAID/CAR/Kazakhstan has not, compared to
industry standards, implemented its microenterprise activities efficiently, but it has
improved its efficiency over the 4-year period, fiscal years 2003 to 2006. (See page 4.)
Regarding the achievement of performance targets, USAID/CAR/Kazakhstan partially
achieved its planned results. For its developing and expanding microfinance institutions
(MFIs), USAID/CAR/Kazakhstan’s microenterprise activities achieved four of the seven
performance targets that the audit reviewed, while USAID/CAR/Kazakhstan’s activities
for its mature MFIs achieved five of its six targets that the audit reviewed. (See page 6.)
Despite the progress reported, the audit identified opportunities to improve program
efficiency and the achievement of performance targets. (See pages 6–10.)

This report includes four recommendations for the Central Asia Regional Director to (1)
develop procedures to ensure that recipients provide the required commitment letter
before the Mission signs microenterprise assistance agreements; (2) develop
procedures to review annual targets for its microenterprise activities to ensure that
performance targets are attainable and realistic; (3) develop procedures ensuring that
written site visit reports are prepared to document the purpose and the results of each
visit; and (4) develop a policy designating an alternate Cognizant Technical Officer
(CTO) to assume these responsibilities when the CTO is detailed to another mission for
any period of 3 months or longer. (See pages 6, 8, and 10.)

USAID/CAR/Kazakhstan did not agree with the overall conclusion reached on the first
audit objective, but acted on the recommendations. We consider all recommendations
closed upon report issuance. Appendix II contains USAID/CAR/Kazakhstan’s comments
and our evaluation of those comments.




                                                                                         1
BACKGROUND

USAID has included microenterprise activities in its strategy for economic development
and poverty reduction. Microenterprises are small, informally organized commercial
operations owned and operated mostly by the poor and constitute the majority of
businesses in many countries. They account for a substantial share of total employment
and gross domestic product, and they contribute significantly to the alleviation of poverty.
USAID microenterprise program objectives are to:

          •	 reduce poverty among microenterprise participants (owners, workers, and
             families);
          •	 target the poor and the very poor;
          •	 encourage women’s participation; and
          •	 develop sustainable microfinance institutions.

     According to the USAID Office of Microenterprise, microenterprise activities comprise four
     major components, namely:

          •	   Microfinance;
          •	   Enterprise Development;
          •	   Financial Policy; and
          •	   Microenterprise Development Policy.

For this audit, we focused on the microfinance component of microenterprise activities. In
USAID/CAR/Kazakhstan 1 the majority of microfinance activities are conducted under the
                               TPF   FPT




regional umbrella project known as Central Asia Microfinance Alliance (CAMFA) program.        T   T




CAMFA is a USAID-funded project with the goal of building and expanding the services of
sustainable microfinance institutions (MFIs) and promoting poverty reduction. CAMFA
works in Kazakhstan, Kyrgyzstan, Tajikistan, and Uzbekistan to deepen the outreach of
lending organizations through the provision of technical assistance and grants coupled
with access to lending capital.

On September 26, 2002, USAID/CAR/Kazakhstan entered into a cooperative agreement
with ACDI/VOCA, the implementing partner, 2 to actualize the CAMFA concept. CAMFA
                                                     TPF   FPT




comprised two phases, namely “CAMFA l” and “CAMFA ll.” CAMFA I covered the period
October 1, 2002 through September 30, 2006, and CAMFA ll began in October 2006.
Under CAMFA l, USAID funding totaled $12.4 million with approximately 24 percent or
$2.9 million of this amount being allocated to microfinance activities in Kazakhstan. Our
audit covered CAMFA l microfinance activities in Kazakhstan. MFIs, as shown in Table 1,
are categorized in three tiers, depending on their stage of development, financial strength,
and     lending     capacity.      To    track    the    operating    efficiency   of   the

1
TPUSAID/CAR/Kazakhstan is a regional USAID office, but this report uses the word Mission to
     PT




refer to this office.
2
TPThe term “implementing partner” means an entity eligible to receive assistance under the
     PT




Microenterprise Results and Accountability Act of 2004 and is a United States or an indigenous
private voluntary organization, credit union, or cooperative organization; or an indigenous
governmental or nongovernmental organization; a microenterprise institution; a microfinance
institution; or a practitioner institution


                                                                                             2
MFIs, USAID/CAR/Kazakhstan combined the operating ratios of developing and
expanding MFIs with those of mature MFIs.

                                             Table 1: MFI Tiers
          MFI Tier             Capital Provided By              Terms in which Capital Is
                               Implementing Partner 3TPF   FPT  Provided
          Infant MFIs          Not applicable                   Grants and technical assistance
                                                                only
          Developing and       $10,000–$200,000 line of         Capital provided with no interest.
          Expanding MFIs       credit for up to 6 months        Capital must be provided to
                                                                obtain follow-on tranches.
          Mature MFIs          $100,000–$500,000 line of        Capital provided with less than
                               credit for up to 12 months       commercial rates


AUDIT OBJECTIVES
     This audit was conducted at USAID/CAR/Kazakhstan as part of the Office of Inspector
     General’s 2007 annual audit plan. It was one in a planned series of individual worldwide
     mission audits of USAID’s microfinance activities. The audit was performed to answer
     the following questions:

            •   Did USAID/CAR/Kazakhstan implement its microenterprise activities efficiently?

            •   Did USAID/CAR/Kazakhstan’s microenterprise activities achieve planned results?

     Appendix I contains a discussion of the audit’s scope and methodology.




3
TPMFIs are classified as infant, mature, or developing and expanding MFIs based on the amount
     PT




of capital provided by the implementing partner.


                                                                                                     3
AUDIT FINDINGS

Did USAID/CAR/Kazakhstan                                    implement        its    microenterprise
activities efficiently?
Compared      with   the   Microfinance     Information  Exchange 4        benchmarks,  TPF   FPT




USAID/CAR/Kazakhstan has not implemented its microfinance activities efficiently. The
audit used four benchmarks from this information exchange as the criteria to determine
whether, over the 4-year period, from fiscal years (FYs) 2003 to 2006,
USAID/CAR/Kazakhstan’s microfinance activities were operating efficiently.                          TP   PT




USAID/CAR/Kazakhstan's efficiency improved over a 4-year period (see Table 2).
Compared with the benchmark “Borrowers per Staff Member,” the audit noted that fewer
microfinance institution (MFI) borrowers were serviced relative to the benchmark.
Similarly, the benchmark “Borrowers per Loan Officer” shows that fewer borrowers than
the standard were serviced per loan officer.

Additionally, each of the four “Operating Expense Ratios” was higher than the
benchmark percentage of 22.8 percent. Similarly, the 0.3 percent “Write-off Ratio” for
2006 shows that the Mission’s MFIs have higher loan write-offs than the industry
standards. Table 2 shows the improving trend for these indicators over the 4-year
period and compares benchmark industry standards with the actual indicators.

                         Table 2: Indicators Measuring the Efficiency of Microfinance Activities 

                                As of September 30, 2003 through September 30, 2006 


               Indicators 5
                         TPF   FPT                   2003       2004        2005     2006                     Benchmark

               Borrowers per Staff Member              42         65          55       50                            66

               Borrowers per Loan Officer              92        148         141      154                           168

               Operating Expense Ratio               33%         27%        32%       27%                        22.8%

               Write-off Ratio                      0.2%        0.0%       0.0%      0.3%                         0.2%

The actual indicators did not meet the benchmark industry standards because a new
MFI was added in 2004 and two more were added in 2005. The operating expense
ratios of new MFIs are normally higher than mature MFIs because of start-up costs and
the number of borrowers per staff member and loan officer are lower for new MFIs.
Additionally, the “Operating Expense Ratio” was adversely impacted in 2005 due to the
purchase of a management information system and increased staff training costs. The
“Write-off Ratio” met or exceeded the industry.

4
TPThe Microfinance Information Exchange is a global, Web-based microfinance information
     PT




platform providing information to sector actors and the public on microfinance institutions
worldwide and seeks to develop a transparent information market to link MFIs worldwide with
investors and donors. This platform currently provides data on 953 MFIs and 160 partners. The
benchmarked figures were based on latest data available – 2005 data for Central Asia.
5
TPSee Appendix III for calculation formulas and definitions of indicators.
          PT




                                                                                                                      4
standard for 3 of the 4 years reviewed. The minimal up tick in 2006 is partially
attributable to a change in the write-off policy of one of the MFIs.




       Photograph of microfinance customers conducting business at a branch of a
       mature MFI in Shymkent, Kazakhstan, March 12, 2007.

Although    the    audit    noted    improvement      in   the   implementation     of
USAID/CAR/Kazakhstan’s microfinance activities, the activities were not being
implemented at the efficiency level of industry standards. Ensuring that MFIs provide
the required commitments and strengthening USAID/CAR/Kazakhstan’s monitoring
would serve to improve the program’s efficiency. The need to obtain the required
commitments is discussed below, and the need to strengthen the Mission’s monitoring is
discussed on page 8. We are not making any recommendations relating to the Mission’s
efficiency measures as compared to benchmarks because of the improving efficiency
trends noted and because of the adverse effect that newly added developing and
expanding MFIs have on efficiency indicators.

ADS Eligibility Criteria Not Followed
According to Automated Directives System (ADS) 219.3.5.2, before a mission signs an
agreement to provide assistance to an MFI, the management of the institution must
provide the mission with a credible written commitment to (1) attain full financial
sustainability on the MFI's financial service activities within no more than 7 years of the
initial provision of USAID assistance, and (2) use USAID assistance to expand the
availability of financial services to microentrepreneurs and other poor people.



                                                                                         5
The audit found that the Mission had not obtained such financial sustainability commitment
letters from seven MFIs reviewed. Mission officials explained that they did not request and
obtain written commitment letters because they assumed the requirement was incorporated in
the cooperative agreement with the implementing partner. A review of the agreement did not
find such language. Without being required to prepare this commitment letter, the MFI may not
be aware that it needs to operate efficiently to ensure its long-term sustainability. Additionally,
noncompliance with this ADS requirement increased the risk that unqualified MFIs would
receive assistance. Compliance with this requirement provides evidence that the MFI knows
that within 7 years it will have to operate efficiently in order to attain its full financial
sustainability.   Thus, we are making the following recommendation to strengthen the
sustainability and improve the efficiency of the microfinance program.

          Recommendation No 1: We recommend that the Central Asia Regional Director develop
          procedures to ensure that recipients provide the required commitment letter before
          USAID/CAR/Kazakhstan signs microenterprise assistance agreements.

Did USAID/CAR/Kazakhstan's                              microenterprise       activities                     achieve
planned results?
USAID/CAR/Kazakhstan partially achieved its planned results. For its developing and
expanding MFIs, USAID/CAR/Kazakhstan’s microenterprise activities achieved four of the
seven performance targets that the audit reviewed, while USAID/CAR/Kazakhstan’s activities
for its mature MFIs achieved five of its six targets that the audit reviewed. 6 Tables 3 and 4 show
                                                                                  TPF   FPT




results for the developing MFIs and the mature MFIs, respectively. According to the Mission,
under the CAMFA I program, reviewing developing MFI and mature MFI results separately
enhances the clarity of reported results.

                     Table 3: Performance Targets and Actual Results for Developing and 

                                  Expanding MFIs as of September 30, 2006 

           Performance Indicators                Performance     Actual                       Achieved 7
                                                                                                       TPF   FPT




                                                 Targets         Results

           Active Portfolio ($)                     $2,701,000       $903,872                         No

           Number of Active Clients                      3,000              579                       No

           Average Loan Size ($)                          $243         $1,561                        Yes

           Portfolio at Risk (> 1day) 8
                                     TPF   FPT             7%               2%                       Yes

           Loan Loss Provisioning                          5%               0%                       Yes

           Return on Assets                               15%              11%                        No

           Operational Self Sufficiency                  100%              172%                      Yes


6
TPUSAID/CAR/Kazakhstan did not track the “Loan Loss Provisioning” indicator for its mature MFIs.
     PT




7
TPAs part of our methodology, we set materiality standards for our conclusions. See Scope and
     PT




Methodology section for more information.
8
TPPortfolio at Risk indicates the potential for future loan losses based on the current performance of the
     PT




loan portfolio.


                                                                                                                   6
                           Table 4: Performance Targets and Actual Results for Mature 

                                         MFIs as of September 30, 2006 

                                                   Performance            Actual
                Performance Indicators
                                                   Targets                Results               Achieved

                Active Portfolio ($)                  $23,123,134          $26,187,888            Yes

                Number of Active Clients                    23,567               22,469           Yes

                Average Loan Size ($)                         $999               $1,165           Yes

                Portfolio at Risk (> 1 day)                     1%                0.23%           Yes

                Return on Assets                               13%                  11%         Neutral 9
                                                                                                        TPF   FPT




                Operational Self Sufficiency                 148%                   155%          Yes




                       Photograph of microfinance customers receiving technical assistance in
                       Shymkent, Kazakhstan, March 12, 2007

Although we noted significant progress in achieving performance targets, variances from
planned results were caused by the following:

            •	 Some performance targets set by the Mission and implementing partner were not
               realistic; and

            •      Mission monitoring of microfinance activities needed strengthening.

These two issues are discussed in more detail below.



9
TP   PT   See Methodology section of this report for explanation of the term “neutral.”


                                                                                                                    7
Some Performance Targets Were Not Realistic
According to ADS 203.3.4.5, USAID operating units should set performance targets that
can optimistically, but realistically be achieved within the stated timeframe and with the
available resources. Targets should be ambitious, but achievable given USAID and
other donor inputs.

For its developing and expanding MFIs, USAID/CAR/Kazakhstan and the implementing
partner used seven targets. One target for work performance was too conservative and,
hence, was easily achieved; however, two others were too optimistic and, accordingly,
were not achieved. For example, (1) actual active clients were only 19 percent of the
performance target, 2,421 less than the targeted 3,000 clients, and the actual dollar
amount of the portfolio was only 33 percent of the targeted amount, $1.8 million less
than the $2.7 million target; and (2) conversely, the actual average loan size was six
times the $243 target per loan.

According to USAID/CAR/Kazakhstan and implementing partner officials, the targets were
too conservative in one case and in two cases too optimistic because there was little or no
historical data from the MFIs to help develop the targets. Thus, they relied on preliminary
estimates. Mission officials asserted that this was the first microenterprise cooperative
agreement and there was little or no historical data to follow. Additionally, the Mission
did not perform adequate oversight and monitoring of the program that would have
identified and adjusted excessive variances in a more timely manner. See pages 8–10
for further discussion.

Making targets more realistic keeps them relevant and encourages improved results.
Targets that are set too low or too high are not useful in accurately gauging
performance, enhancing the quality of the loan portfolio, and managing resources.

   Recommendation No 2: We recommend that the Central Asia Regional
   Director develop procedures to review annual targets for its microenterprise
   activities to ensure that performance targets are ambitious, but achievable.

Monitoring Needs Strengthening
 Summary: ADS 303.2 (f), states that Cognizant Technical Officers (CTOs) are
 responsible for ensuring that USAID exercises prudent management of assistance
 awards and for making the achievement of program objectives easier by monitoring
 and evaluating the recipient and its performance. USAID/CAR/Kazakhstan did not
 conduct any site visits of its Kazakhstan microfinance activities in FY 2006 because
 USAID, due to higher agencywide monitoring priorities, reassigned the CTO to another
 country for 8 months. Additionally, during this 8-month period, the Mission did not
 delegate this monitoring and management responsibility to another one of its
 employees. For FYs 2003 through 2005, according to Mission officials, site visits were
 not formally recorded because documenting each site visit became a low priority
 considering their workload. As a result of these monitoring and documentation
 weaknesses, inconsistent management of a program may have existed. In addition,
 management may not have timely information on program performance to measure
 progress and influence program decision-making and resource allocation.




                                                                                         8
ADS 303.2 (f) states that Cognizant Technical Officers (CTOs) are responsible for
ensuring USAID exercises prudent management of assistance awards and for making
the achievement of program objectives easier by monitoring and evaluating the recipient
and its performance. This section also says that site visits are an important part of
effective award management and that when the CTO makes a site visit, the CTO must
write a brief report highlighting findings and put a copy in the official award file.
Additionally, USAID’s Guidebook for Managers and Cognizant Technical Officers on
Acquisition and Assistance states that the CTO is responsible for ensuring that USAID
exercises prudent management over assistance funds and for monitoring the recipient
and the recipient’s performance during the award by maintaining contact, performing site
visits, and reviewing and analyzing performance and financial reports. Furthermore, the
cooperative agreement requires the implementing partner to submit program reports to
the CTO on a quarterly basis.

USAID/CAR/Kazakhstan’s monitoring weaknesses contributed to unfavorable variances
in achieving its performance targets (pages 6 and 7). For 8 months during FY 2006, the
CTO was assigned to another USAID mission.                   During this period the
USAID/CAR/Kazakhstan CTO did not conduct any site visits of its microfinance
activities. Additionally, during the FY 2003 to FY 2005 period, the Mission did not
formally document site visits and record findings in its award files; nor did it follow-up
with the implementing partner to address performance targets that were not being met.

Monitoring weaknesses may adversely impact loan performance and loan losses. As an
example where strengthened monitoring could improve loan performance, and as clearly
shown in the comparative photos below, the condition of two different tractors, used as
collateral for loans by two different farmers, varied markedly. We inspected two tractors:
a 1968 tractor and a 1987 tractor. We observed that the 1968 tractor was in operating
condition, whereas the 1987 tractor could not be started. The deteriorated condition—
rusty, inoperable, and dormant appearance—of the newer tractor reduced, in our
opinion, its collateral value relative to the loan it was supporting. In other examples, we
noted that monitoring would have identified areas where technical agricultural assistance
was needed to improve the farmers’ harvest. Nevertheless, Mission personnel, through
site visits and monitoring by implementing partner personnel, can work with borrowers to
help ensure that the value of collateral securing loans is maintained and agricultural
production is enhanced, minimizing the risk to the loan portfolio.




                                                                                         9
Photograph of a 1968 Tractor, Shymkent,          Photograph of a 1987 Tractor, Shymkent,
Kazakhstan on March 11, 2007                     Kazakhstan on March 11, 2007

USAID/CAR/Kazakhstan did not conduct any site visits of its Kazakhstan microfinance
activities in FY 2006 because USAID, due to higher agencywide monitoring priorities,
reassigned USAID/CAR/Kazakhstan’s CTO to another country. Additionally, during this
8-month period, the Mission did not delegate this monitoring and management
responsibility to another one of its employees. For FYs 2003 through 2005, according to
Mission officials, site visits were not formally recorded because documenting each site
visit became a low priority considering their workload. However, according to the CTO,
the CTO provided verbal briefings to the USAID office director and staff, and reported
problem areas to management. In addition, the CTO did not follow-up with the
implementing partner to address performance targets that were not met because the
CTO’s focus was more on monitoring regional performance indicators than those of
Kazakhstan’s specific country targets.

As a result of these monitoring and documentation weaknesses, inconsistent
management of a program may exist. Additionally, in the case of a new CTO, absence
of adequate documentation on prior program monitoring efforts may result in erroneous
decisions and actions. Finally, as a result of not having the necessary forms for
oversight and monitoring of a program, management may not have timely information on
program performance to measure progress and influence program decision-making and
resource allocation. To help the microfinance program build on progress made and to
enhance monitoring of the program’s performance, we make the following
recommendations:

   Recommendation No. 3: We recommend that the Central Asia Regional Director
   issue a mission order requiring Mission personnel to prepare – in compliance
   with established USAID procedures – written site visit reports after each site visit,
   and to document the purpose and the results of each visit.
   Recommendation No. 4: We recommend that the Central Asia Regional Director
   develop a policy designating an alternate Cognizant Technical Officer to assume
   Cognizant Technical Officer responsibilities when the Cognizant Technical Officer
   is detailed to another mission for any period of 3 months or longer.


                                                                                           10
EVALUATION OF
MANAGEMENT COMMENTS
The following summarizes our evaluation of management comments:
Overall Finding: Management did not concur with our conclusion on the first audit
objective—“Did USAID/CAR/Kazakhstan implement its microenterprise activities
efficiently?” Management asserted that it is inaccurate to use Microfinance Information
Exchange (MIX) benchmarks as industry standards to evaluate the efficiency of its
microenterprise activities because of inherent limitations in MIX benchmarks. On the
second audit objective—“Did USAID/CAR/Kazakhstan’s microenterprise activities
achieve planned results?”—management did not provide comment.
Evaluation of Management Comments – While we agreed and acknowledged in our
report that USAID/CAR/Kazakhstan’s efficiency improved over a 4-year period covered
by our audit, when compared to MIX benchmarks, USAID/CAR/Kazakhstan did not
implement its microenterprise activities efficiently.
While we acknowledge management’s reservations on the use of MIX benchmarks as
industry standards, we believe that MIX is a competent authoritative source of industry
benchmarks established by the Consultative Group to Assist the Poorest (CGAP).
CGAP is a consortium of 33 public and private development agencies working together
to expand access to financial services for the poor in developing countries, and includes
the Citigroup Foundation, the Deutsche Bank Americas Foundation, the Open Society
Institute, and the Rockdale Foundation. Furthermore, USAID is a member of this
consortium. CGAP was created by these aid agencies and industry leaders to help
create permanent financial services for the poor on a large scale (often referred to as
“microfinance”). CGAP’s unique membership structure and network of worldwide
partners make it a potent convening platform to generate global consensus on standards
and norms.
In addition we believe management’s concerns were addressed by MIX on its Web site
as follows:
Microfinance institutions operate in diverse environments and differ in their scope of
operations and target markets. Historically, they face difficulties in isolating adequate
and comparable benchmarks. The problem of data incomparability is addressed by MIX
by utilizing the most complete source of financial information and social indicators in the
microfinance industry. MIX applies a set of appropriate peer groups, adjusts data for
comparability and, on the basis of this, offers reliable and relevant benchmarks to the
microfinance industry.
Recommendation No 1: We recommend that the Central Asia Regional Director
develop procedures to ensure that recipients provide the required commitment letter
before USAID/CAR/Kazakhstan signs microenterprise assistance agreements.
Evaluation of Management Comments – In response, USAID/CAR/Kazakhstan issued
a notice instructing all CTOs of microenterprise program beneficiaries to obtain financial
sustainability commitment letters from all microenterprise program beneficiaries prior to
entering into subagreements. In addition to this notice, the CAMFA CTO issued a letter



                                                                                        11
to the CAMFA Chief of Party instructing CAMFA to sign commitment letters with all
CAMFA beneficiaries.
Based on the information provided by USAID/CAR/Kazakhstan, we consider that a
management decision has been reached for Recommendation No. 1, and we consider
the recommendation closed upon report issuance.
Recommendation No 2: We recommend that the Central Asia Regional Director
develop procedures to review annual targets for its microenterprise activities to ensure
that performance targets are ambitious, but achievable.
Evaluation of Management Comments – In response and in addition to the
procedures already in place, USAID/CAR/Kazakhstan issued a reminder notice to CTOs
to ensure that performance targets are up-to-date, attainable, and realistic.
Based on the information provided by USAID/CAR/Kazakhstan, we consider that a
management decision has been reached for Recommendation No. 2, and we consider
the recommendation closed upon report issuance.
Recommendation No 3: We recommend that the Central Asia Regional Director issue
a mission order requiring Mission personnel to prepare—in compliance with established
USAID procedures—written site visit reports after each site visit, and to document the
purpose and the results of each visit.
Evaluation of Management Comments – In response, USAID/CAR/Kazakhstan
provided guidance for trip reports that included the following:
   •	 Each technical office creates a procedure and practice of formal reporting for
      field trips.
   •	 Each office develops a format and template for use on field trips.
   •	 A field trip file is to be maintained by each office.
In addition, the Economic Growth Office Director issued a reminder notice instructing
CTOs and Activity Managers to document site visits.
Based on the information provided by USAID/CAR/Kazakhstan, we consider that a
management decision has been reached for Recommendation No. 3, and we consider
the recommendation closed upon report issuance.
Recommendation No 4: We recommend that the Central Asia Regional Director
develop a policy designating an alternate Cognizant Technical Officer to assume
Cognizant Technical Officer responsibilities when the Cognizant Technical Officer is
detailed to another mission for any period of 3 months or longer.
Evaluation of Management Comments – In response and in addition to the
procedures already in place, USAID/CAR/Kazakhstan issued a notice reminding CTOs
to notify the award recipient and the Agreement Officer as soon as possible when a CTO
will be away from the office for 2 weeks or more. In these instances, the alternate CTO
will carry out all CTO responsibilities, including site visits.
Based on the information provided by USAID/CAR/Kazakhstan, we consider that a
management decision has been reached for Recommendation No. 4, and we consider
the recommendation closed upon report issuance.




                                                                                     12
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Office of Inspector General’s Performance Audits Division conducted this audit in
accordance with generally accepted government auditing standards. This audit was
performed as one audit in a planned series of individual worldwide mission audits of
USAID’s microfinance activities. The purpose of the audit was to determine if
USAID/Central Asian Republics (CAR)/Kazakhstan's microenterprise activities were being
implemented efficiently and were achieving performance targets.

In planning and performing the audit, we assessed the Mission’s controls related to the
microfinance activities. The management controls identified included the Mission’s Annual
Report, strategic plan, and the Mission’s annual self-assessment of management controls,
as required by the Federal Managers Financial Integrity Act and other applicable laws and
regulations, progress reports, and day-to-day interaction between Mission staff and
program implementers. We did not verify the accuracy of financial indicators used by the
Mission in measuring whether USAID/CAR/Kazakhstan’s activities were being
implemented efficiently and whether performance targets were being achieved. However,
we reviewed, analyzed and obtained explanations for those indicators with a view toward
achieving our audit objectives.

The audit covered the Mission’s microfinance activities—one of four microenterprise
components. Microfinance activities in Kazakhstan, according to the latest USAID
“Microenterprise Results Reporting” (MRR) available at the time of this audit, totaled
approximately $1.6 million in fiscal year (FY) 2005 and represented approximately 72
percent of $2.2 million Kazakhstan microenterprise activities. Of these amounts, we
selected for audit microfinance activities which totaled approximately $1.4 million in FY
2005. Microfinance activities were selected because of the worldwide interest in this
component and because of the amount of dollars USAID has invested. In October 13,
2006, the 2006 Nobel Peace Prize was awarded for using microfinance as a vehicle for
poverty reduction. Additionally, in FY 2005 alone, USAID’s investment in microfinance
was $93.3 million, representing 44 percent of the $211.5 million of USAID’s funding for
microenterprise activities.

Background and planning work was conducted in Washington, D.C., from November
2006 through January 2007. Audit fieldwork was conducted in Kazakhstan from
February 23 through March 16, 2007. For the first audit objective on efficiency, our audit
focused on FYs 2003, 2004, 2005, and 2006, while for the second audit objective,
performance targets, our audit focused on FY 2006. Additionally, for both objectives, our
audit covered USAID/CAR/Kazakhstan’s developing and expanding Microfinance
Institutions (MFIs) and its mature MFIs. The scope did not address infant MFIs because
these were an immaterial part of the Mission’s operation.




                                                                                       13
Methodology
To answer the audit objectives, we met with implementing partner employees, MFI officials
and borrowers in Kazakhstan, and USAID officials in Kazakhstan and Washington, D.C.
We conducted interviews with appropriate officials and reviewed relevant documentation
produced by USAID/CAR/Kazakhstan and USAID/Bureau for Economic Growth,
Agriculture and Trade/Office of Poverty Reduction such as award documents including
amendments, Mission correspondence, internally used worksheets for measuring results,
the Mission performance plan, financial reports, and field visit reports. We reviewed MFI
and implementing partner prepared documentation such as annual work plans, quarterly,
and monthly reports.

Accordingly, for the first audit objective, we analyzed and reported on the combined
operating efficiencies of developing and mature MFIs. However, in monitoring results,
USAID/CAR/Kazakhstan tracked developing MFI results separately from its mature MFIs.
Thus, for the results objective, we separately analyzed and reported our findings on the
two categories: developing and expanding MFIs and mature MFIs. Combining these two
categories for results reporting would, in our opinion, misleadingly skew the results of
these two different classes of entities.

We conducted 13 site visits to selected MFI offices and borrowers’ places of business in
Almaty, Shymkent, and Turkistan, Kazakhstan. During the site visits we observed
operating activities and assessed the impact of the microfinance program. We reviewed,
but did not audit or test for accuracy, financial information reported in the MFIs’ accounting
systems and USAID/CAR/Kazakhstan’s financial information reflected in the MRR system.

To test whether the microfinance program was implemented efficiently and performance
targets were achieved, we analyzed, for relevance, financial indicators and pertinent
documents from the implementing partner and MFIs. In addition, we assessed the
reliability and validity of the reported indicators by tracing reported results from the
Mission’s records through the implementing partner to the MFI’s accounting records and
published financial statements. We specifically analyzed reported accomplishments by
doing the following:

•	 For evaluating efficiency, we judgmentally selected four of seven efficiency indicators
   and we compared them with 2005 industry standards from the Microfinance
   Information Exchange to assess whether the MFIs were operating efficiently. As part
   of our audit approach, we interviewed Mission and implementing partner personnel
   and reviewed documentation, and performed analytical review procedures on
   reported data. In addition, we obtained explanations for significant variances.
   However, we did not audit the data reported by the MFIs.

•	 For evaluating performance targets and sustainability, we selected performance
   indicators that were most closely related to assessing performance targets and
   sustainability of microfinance activities. We compared results against targets to
   determine whether performance targets were achieved and obtained explanations for
   significant variances. However, we did not audit the data reported by the MFIs.




                                                                                           14
We set the following materiality standards for our conclusions: (1) If at least 90 percent
of the selected results were achieved, the answer to the audit objective would be yes;
(2) If at least 80 percent but less than 90 percent of the selected results were achieved,
the answer to the audit objective would be neutral; and (3) If less than 80 percent of the
selected results were achieved, the answer to the audit objective would be no.

While we have these threshold criteria, we also used auditor judgment to determine the
applicability of the threshold percentages, taking into consideration other factors such as
significance of the various outputs, environmental aspect, and timeliness of funds
distribution.




                                                                                        15
                                          Office of the Director



To:            Steven H. Bernstein, IG/A/PA Director

From:          Thomas Delaney, Acting USAID/Central Asia Regional Director /s/

Date:          August 16, 2007

Subject:       Audit Findings of USAID/CAR Microenterprise Activities

Ref.:          Report No. 9-910-07-XXX-P

__________________________________________________________________________


We appreciate the comments and recommendations of the auditors outlined in the draft report. We
find them constructive and helpful.

This memorandum contains USAID/CAR’s comments on the subject draft audit report received on
July 24, 2007 and includes responses and an action plan for each recommendation.

We do not concur with the overall findings that the Central Asia Microfinance Alliance (CAMFA) I
program was not implemented efficiently. Reasons for our disagreement with the overall audit
findings are contained in an accompanying Annex.

Recommendation No. 1: We recommend that the Central Asia Regional Director develop
procedures to ensure that recipients provide the required commitment letter before the
Mission signs microenterprise assistance agreements.

In response to this Recommendation, a notice has been issued by the Agreements Officer instructing
all CTOs of microfinance programs to obtain financial sustainability commitment letters from all
microfinance program beneficiaries prior to entering into sub-agreements. In addition to this notice,
the CAMFA CTO issued a letter to the CAMFA Chief of Party instructing CAMFA to sign
commitment letters with all CAMFA beneficiaries. CAMFA has already introduced this procedure
into its technical assistance program and commitment letters are now being filed as project official
documentation. Copies of the notice and the letter to CAMFA are attached.

Based on the above actions that have been taken, USAID/CAR requests that this recommendation be
closed.

Recommendation No. 2: We recommend that the Central Asia Regional Director develop
procedures to review annual targets for its microenterprise activities to ensure that
performance targets are attainable and realistic.

USAID/CAR already has procedures in place to review and analyze program performance. During
the annual mission-wide portfolio review, performance results and progress toward meeting planned
targets are analyzed for all activities, including microfinance activities. The annual review also
ensures that each activity contains realistic and achievable targets and results. In addition, the
Agreements Officer has issued a reminder notice to CTOs to ensure that performance targets are up
to date, attainable, and realistic. Copies of the mission’s portfolio review template and the notice are
attached.

In addition, each year CAMFA sets performance targets in its action plans and agreements for
training and technical assistance for each microfinance institution beneficiary. The action plans are
an integral part of the agreements with each CAMFA partner. An example of a sub-agreement and
an action plan are attached.

Based on these actions, USAID/CAR requests that this recommendation be closed.

Recommendation No. 3: We recommend that the Central Asia Regional Director develop
procedures ensuring that written site visit reports are prepared to document the purpose and
the results of each visit.

During the Mission’s Management Control Review Committee (MCRC) meeting in March 2007, the
acting Mission Director, provided guidance for trip reports that included the following:

   •   Each technical office creates a procedure and practice of formal reporting for field trips.
   •   Each office develops a format and template for use on field trips.
   •   A field trip file is to be maintained by each office.

A copy of the template for the Office of Economic Growth is attached. Based on the audit
recommendation, the Economic Growth Office Director issued a reminder notice instructing CTOs
and Activity Managers to document site visits using the template. All Economic Growth project
monitoring visits are now documented using the template.

Based on these actions, USAID/CAR requests that this recommendation be closed.

Recommendation No. 4: We recommend that the Central Asia Regional Director develop a
policy designating an alternate Cognizant Technical Officer to assume these (site visit)
responsibilities when the CTO is detailed to another mission for any period of three months or
longer.

A policy already exists for USAID/CAR for designating an alternate CTO. An alternate CTO is
designated in the CTO designation letter for all awards. The alternate CTO is authorized to act on
the CTO’s behalf during the absence of the CTO. This would include conducting necessary site
visits during the absence of the CTO. In addition, the Agreements Officer has issued a notice to
CTOs reminding them to notify the award recipient and the Agreements Officer as soon as possible
when a CTO will be away from the office for two weeks or more. In these instances, the alternate
CTO will carry out all CTO responsibilities, including site visits.

Based on these actions, USAID/CAR requests that this recommendation be closed.

USAID/CAR is committed to enforcing these policies in response to the audit recommendations
outlined in the draft audit report.
List of Annexes:

Annex 1       Comments on the Audit Findings
Annex 2       Agreement Officer Notice
Annex 3       Letter to CAMFA
Annex 4       Portfolio review template
Annex 5       Examples of CAMFA subagreement
Annex 6       Example of CAMFA action plan
Annex 7       Office of Economic Growth trip report template
Annex 8       Office of Economic Growth reminder notice
Annex 9       Example of CTO Designation Letter
                                                                                         APPENDIX III



DEFINITIONS OF
EVALUATION OF CRITERIA
Financial indicators and ratios used in measuring efficiency and evaluating
performance
         Term                              Formula                             Definition
Operational                Financial Revenue
                           U                                    Measures how well an MFI can cover its
Self-Sufficiency           (Financial Expense + Net Loan Loss   costs through operating revenues.
                           Provision Expense + Operating
                           Expense)
Return on Assets           Net Operating Income – Taxes
                           U                                    Measures how well the MFI uses its
                           Average Assets                       assets to generate returns. This ratio is
                                                                net of taxes and excludes non-operating
                                                                items and donations.
Portfolio at Risk (PAR)    (PAR > 30 Days + Value of            The most accepted measure of portfolio
Ratio                      Renegotiated Loans)
                           U                                    quality. The most common international
                           Gross Loan Portfolio                 measurements of PAR are > 30 days and
                                                                > 90 days.
Write-off Ratio            Value of Loans Written-off
                           U                                    Represents the percentage of the MFI’s
                           Average Gross Loan Portfolio         loans that has been removed from the
                                                                balance of the gross loan portfolio
                                                                because they are unlikely to be repaid.
                                                                MFIs’ write-off policies vary and it is
                                                                recommended that managers calculate
                                                                this ratio on an adjusted basis.
Operating Expense          Operating Expense
                           U                                    Highlights personnel and administrative
Ratio                      Average Gross Loan Portfolio         expenses relative to the loan portfolio,
                                                                and is the most commonly used
                                                                efficiency indicator.
Active Portfolio               Number of Loans Outstanding      Number of outstanding loans available
                                                                for clients
Active Clients             Number of Borrowers, Savers, and     Number of borrowers, voluntary savers,
                           Clients                              and other clients
Borrowers per Loan         Number of Active Borrowers
                           U                                    Measures the average caseload of each
Officer                    Number of Loan Officers              loan officer, or number of borrowers
                                                                managed by one loan officer.
Active Clients per Staff   Number of Active Clients
                           U                                    The overall productivity of the MFI’s
Member                     Total Number of Personnel            personnel in terms of managing clients,
Borrowers per Staff        Number of Borrowers
                           U                                    including borrowers, voluntary savers,
Member                     Total Number of Personnel            and other clients.

Average Outstanding        Gross Loan Portfolio
                           U                                    Measures the average outstanding loan
Loan Size                  Number of Loans Outstanding          balance per borrower. This is a driver of
                                                                profitability and a measure of how much
                                                                of each loan is available to clients.
Loan Loss Provisioning     Uncollectible Loans Written Off
                           U                                    The total principal of loans written off as
                           Average Unpaid Balance of            uncollectible during a reporting period, as
                           Outstanding Loans                    a percentage of the average unpaid
                                                                balance on outstanding loans over the
                                                                same period. In this guidance, loans
                                                                past due one year or more must be
                                                                written off as uncollectible.




                                                                                                        19
                                                                                                                                APPENDIX IV



USAID/CAR/Kazakhstan
Microfinance Organization
Structure
                                      USAID/Central Asia Program Chart

                                                          USAID/Washington




                                                        USAID/CAR/Kazakhstan
                                                          Almaty, Kazakhstan




                                                     Office of Economic Growth




                          ACDI/VOCA
                                                                                              European Bank for Reconstruction and
                  Central Asia Microfinance
                                                                                           development (EBRD) for the Micro and Small
                 Alliance (CAMFA) Program
                                                                                                Enterprise (MSE) Lending Program




                                                                               Kazakhstan Small
  Kazakhstan   Kyrgyzstan           Tajikistan   Uzbekistan                                               Kyrgyzstan MSE                Tajikistan MSE Finance
                                                                               Busines program
                                                                                                          Finance Facility                        Facility
                                                                                    KSBP)



Organization units we interacted with during the audit are represented by the shaded areas.




                                                                                                                                                          20
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
